HHS/OIG-Audit-"Review of Payments for Inhalation Drugs Made by Region C Durable Medical Equipment Regional Carrier,"(A-06-00-00053)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Payments for Inhalation Drugs Made by Region C Durable Medical
Equipment Regional Carrier," (A-06-00-00053)
October 4, 2001
Complete
Text of Report is available in PDF format (826 kb). Copies can also be obtained
by contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This final report points out significant potential improper payments to suppliers
for inhalation drugs by the Region C Durable Medical Equipment Regional Carrier
(DMERC) for the 12-month period ending September 30, 1999. Based on a statistical
sample, we estimate such payments totaled $134 million. Claims were unallowable
($46 million) because payments were for noncovered items of supplies (drugs billed
without a prescription) or the items or supplies were not reasonable and necessary
for the beneficiarys condition. Claims for which there was insufficient documentation
to determine allowability totaled $88 million. This problem occurred primarily
because, with some exceptions, the DMERC had no procedures in place to "look
behind" the claim at the beneficiarys medical record or at the documentation
maintained by the suppliers. Recommendations call for improvements to procedures
and controls and financial adjustments.